Memorandum No. D-2010-RAM-017                 August 13, 2010
 





    American Recovery and Reinvestment Act Project -

   Repair of the Pacific Air Forces Headquarters Building 

              at Hickam Air Force Base, Hawaii


Additional Copies
To obtain additional copies of this memorandum, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/recovery/index.html or contact the
Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703)
604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFB                          Air Force Base
AFCESA                       Air Force Civil Engineering Support Activity
FAR                          Federal Acquisition Regulation
FBO                          Federal Business Opportunities
FPDS                         Federal Procurement Data System
FSRM                         Facilities Sustainment, Restoration, and Modernization
OMB                          Office of Management and Budget
SATOC                        Sustainment, Restoration, and Modernization Acquisition
                                 Task Order Contract
USACE                        U.S. Army Corps of Engineers
                                INSPECTOR GENERAL 

                               DEPARTMENT OF DEFENSE 

                                  400 ARMY NAVY DRIVE 

                             ARLINGTON, VIRG INIA 22202-4704 





                                                                           August 13,20 I 0

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: American Recovery and Reinvestment Act Project- Repair of the
         Pacific Air Forces Headquarters Building at Hickam Air Force Base, Hawaii
         (Memorandum No. D-2010-RAM-017)

This memorandum provides results from our audit of an American Recovery and
Reinvestment Act project at Hickam Air Force Base, Hawaii. The audit included analysis
of support provided by the U.S. Air Force Civil Engineering Support Activity. We
determined that Hickam Air Force Base and U.S. Air Force Civil Engineering SUppolt
Activity personnel properly planned, justified, and contracted the American Recovery and
Reinvestment Act project.

We will continue to review DOD's progress and issue subsequeht reports and memoranda
that will discuss our evaluation of DOD's implementation of the Ametican Recovery and
Reinvestment Act. We are making no recommendations and do not require a written
response. Therefore, we are publishing this memorandum in final form.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-9201).




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
>> This blank page represents the back side of the transmittal memorandum. <<
Memorandum No. D-2010-RAM-017 (Project No. D2009-D000AB-0169.001)                    August 13, 2010

                Results in Brief: American Recovery and
                Reinvestment Act Project—Repair of the Pacific
                Air Forces Headquarters Building at Hickam
                Air Force Base, Hawaii

What We Did                                            Management Comments
Our objective was to review the planning,              The Air Force had no comments on a
funding, contracting, and initial execution of a       coordinated discussion draft of this report.
$21.9 million project to repair the Pacific Air
Forces Headquarters building at Hickam Air             Figure 1. Aerial View of the Pacific Air
Force Base, Hawaii, to determine whether the           Forces Headquarters Building Original
efforts of the Air Force complied with Recovery        Configuration
Act requirements, Office of Management and
Budget guidance, the Federal Acquisition
Regulation, and DOD implementing guidance.

What We Found
   		 Hickam Air Force Base personnel
       properly justified and adequately
       planned the Recovery Act project to
       repair the Pacific Air Forces
       Headquarters building.
                                                       Figure 2. Hallways Too Narrow for Egress
   		 Hickam Air Force Base personnel
       properly distributed Recovery Act
       funding to repair the Pacific Air Forces
       Headquarters building.

   		 Air Force Civil Engineering Support
       Activity contracting personnel properly
       solicited, competed, and awarded the
       contract for the Recovery Act project to
       repair the Pacific Air Forces
       Headquarters building.

What We Recommend
This report contains no recommendations.




                                                   i
>> This blank page represents the back side of the Results in Brief page. <<
Table of Contents

Introduction		                                                                    1


       Objective                                                                  1

       Recovery Act Background                                                    1

       Pacific Air Forces Hickam AFB Mission and Functions                        3

       15th Airlift Wing Hickam AFB Mission and Functions                         4

       Air Force Civil Engineering Support Activity                               4

       Repair of Building 1102                                                    4

       Review of Hickam AFB and Air Force Civil Engineering Support Activity 

           Internal Controls                                                      5


Proper Planning, Funding, and Execution of the Recovery Act Project to 

Repair Pacific Air Forces Headquarters Building 1102                              6


Project Planning and Justification                                                6

Project Funding                                                                   7

Project Execution                                                                 7

Tracking and Reporting                                                            9


Appendices

       A. 	Scope and Methodology 	                                               10 

             Prior Audit Coverage                                                11 

       B. Recovery Act Criteria and Guidance 	                                   12 

Introduction
Objective
The primary objective of the audit was to determine whether DOD and its Components
are planning and implementing the American Recovery and Reinvestment Act of 2009
(Recovery Act) by meeting the requirements in the Recovery Act, Office of Management
and Budget (OMB) Memorandum M-09-10, “Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009,” February 18, 2009, and subsequent
related guidance. For this audit, we reviewed the planning, funding, contracting, and
initial execution of a Facilities Sustainment, Restoration, and Modernization (FSRM)
project at Hickam Air Force Base (AFB), Hawaii, to determine whether the efforts of the
Air Force complied with Recovery Act requirements, OMB guidance, the Federal
Acquisition Regulation (FAR), and DOD implementing guidance. See Appendix A for a
discussion of our scope and methodology.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009. It is an
unprecedented effort to jump-start the economy and create or save jobs.

       The purposes of this Act include the following:
              (1) To preserve and create jobs and promote economic recovery.
              (2) To assist those most impacted by the recession.
              (3) To provide investments needed to increase economic efficiency by
                  spurring technological advances in science and health.
              (4) To invest		 in transportation, environmental protection, and other
                  infrastructure that will provide long-term economic benefits.
              (5) To stabilize State and local government budgets, in order to minimize
                  and avoid reductions in essential services and counterproductive state
                  and local tax increases
                  .        .         .         .       .        .       .
       . . . the heads of Federal departments and agencies shall manage and expend the
       funds made available in this Act so as to achieve the purposes specified . . .
       including commencing expenditures and activities as quickly as possible
       consistent with prudent management.

Recovery Act Requirements
The Recovery Act and implementing OMB guidance require projects to be monitored and
reviewed. We grouped these requirements into the following four phases: (1) planning,
(2) funding, (3) execution, and (4) tracking and reporting. The Recovery Act requires
that projects be properly planned to ensure the appropriate use of funds. Review of the
funding phase is to ensure the funds were distributed in a prompt, fair, and reasonable
manner. Review of the project execution phase is to ensure that contracts awarded with
Recovery Act funds were transparent, competed, and contain specific FAR clauses; that
Recovery Act funds were used for authorized purposes; and that instances of fraud,
waste, error, and abuse were mitigated. Review of the execution phase also ensures that
program goals were achieved, including specific program outcomes and improved results
                                              1

on broader economic indicators; that projects funded avoided unnecessary delays and
cost overruns; and that contractors or recipients of funds reported results. Review of the
tracking and reporting phase ensures that the recipients’ use of funds was transparent to
the public and that benefits of the funds were clearly, accurately, and timely reported.

Recovery Act Contracting Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32, March 31, 2009, provides policies and procedures for the
Government-wide implementation of the Recovery Act and guidance on special contract
provisions. Federal Acquisition Circular 2005-32 amended the FAR and provided
interim rules that made FAR solicitation provisions and contract clauses immediately
available for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements are for:

       buying American construction material,
       protecting contractor whistleblowers,
       publicizing contract actions,
       reporting, and
       giving the Government Accountability Office and agency Inspectors General
        access to contracting records.

Federal Government organizations meet requirements for Recovery Act contract actions
by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. FAR Subpart 5.7, “Publicizing
Requirements Under the American Recovery and Reinvestment Act of 2009,” directs
contracting officers to use the Government-wide FBO Web site
(http://www.fedbizopps.gov) to:

       identify actions as funded by the Recovery Act,
       post pre-award notices for orders exceeding $25,000,
       describe supplies in a clear narrative to the general public, and
       provide the rationale for awarding any contracting actions that were not both
        fixed-price and competitive.

FBO is the Federal Government’s central source of Federal procurement opportunities.
FBO is a Web-based portal that allows agency officials to post Federal procurement
opportunities and contractors to search and review those opportunities. Agencies also
post contract award notices on FBO. In addition, to provide transparency, FBO has a
separate section identifying Recovery Act opportunities and awards.

FPDS is the Federal Government’s central source of procurement information.
Contracting officers enter information, to include the Treasury Account Symbol, in the
FPDS for all Recovery Act contract actions. The Treasury Account Symbol enables

                                             2

FPDS to provide transparency by generating and posting a report containing all Recovery
Act contract actions.

OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance, and DOD and the Components issue their implementation
guidance. OMB has issued 10 memoranda and 1 bulletin to address the implementation
of the Recovery Act. See Appendix B for Recovery Act criteria and guidance.

DOD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DOD for
the following programs: Energy Conservation Investment; FSRM: Homeowners
Assistance; Military Construction; Near Term Energy-Efficient Technologies; and U.S.
Army Corps of Engineers (USACE) Civil Works.

The values of the six programs are shown in the following table.
           DOD Agency-Wide and Program-Specific Recovery Act Programs
                        Program                          Amount
                                                       (in millions)
Energy Conservation Investment                               $120
Facilities Sustainment, Restoration, and Modernization      4,260
Homeowners Assistance                                         555
Military Construction                                       2,185
Near Term Energy-Efficient Technologies                       300
U.S. Army Corps of Engineers Civil Works                    4,600
   Total                                                 $12,020

The Recovery Act divides the approximately $12 billion among 32 DOD and USACE
line items of appropriations.

Pacific Air Forces Hickam AFB Mission and Functions
The Pacific Air Forces, with Headquarters at Hickam AFB, Hawaii, is a major command
of the U.S. Air Force and is the air component of the U.S. Pacific Command. The Pacific
Air Forces’ Web site states that its mission “is to provide U.S. Pacific Command
integrated expeditionary Air Force capabilities to defend the homeland, promote stability,
dissuade and deter aggression, and swiftly defeat enemies.” The Air Force approved
27 FSRM Recovery Act projects, valued at $48.7 million, at Hickam AFB. This report
discusses our review of the $21.9 million FSRM project to repair the Pacific Air Forces
Headquarters building. After one project was removed from the American Recovery and
Reinvestment Act project list, the Air Force Audit Agency reviewed the remaining



                                            3


25 FSRM projects and published its review in Air Force Audit Agency Report No.
F2010-0009-FBP000, “American Recovery and Reinvestment Act of 2009, 15th Airlift
Wing, Hickam AFB, Hawaii,” December 21, 2009.

15th Airlift Wing Hickam AFB Mission and Functions
The 15th Airlift Wing is a subordinate command of the U.S. Pacific Command and
reports directly to the Vice Commander of Pacific Air Forces. The 15th Airlift Wing is
responsible for security, civil engineering, communications, personnel management,
logistics, and services and contracting support. Hickam AFB is the largest installation in
the 15th Airlift Wing and consists of 2,850 acres of land and facilities, valued at more
than $405 million.

Air Force Civil Engineering Support Activity
The Air Force Civil Engineering Support Activity (AFCESA), based at Tyndall AFB,
Florida, provides, according to its Web site, responsive, high-quality, cost-effective, and
customer-focused sustainment, restoration, and modernization project execution.
AFCESA also provides labor support contract service and contingency contract support
and execution to customers worldwide.

Repair of Building 1102
Pacific Air Forces Headquarters operations and various other units are located in
building 1102, a reinforced concrete structure with more than 500,000 square feet of
office space. This 3-story, 14-wing structure was completed in 1940 as a barracks;
however, during World War II, the structure was damaged in the Japanese attack on Pearl
Harbor on December 7, 1941. Because of the historic importance of the building, it is
part of the Hickam Field National Landmark, protected by the Advisory Council on
Historic Preservation, the National Park Service, and the State Historic Preservation
Office. Therefore, the building is not a candidate for demolition and must be repaired.

The repair of building 1102 is a major renovation project that includes all work necessary
to bring the building into compliance with the Life Safety Codes, including repairing the
infrastructure; adding or updating current fire detection, alarm, and suppression systems;
establishing areas of refuge; and meeting egress requirements. The building repair of
building 1102 will also include work to comply with the accessibility requirements of the
Americans with Disabilities Act. The 15th Airlift Wing divided the project into four
phases with a total estimated cost of $123 million. Only phase 1 is funded with Recovery
Act funds. The Pacific Air Forces is currently leasing temporary structures adjacent to
building 1102 to accommodate the 13th Air Force, at an annual cost of $1.6 million. In
addition, the Pacific Air Forces spends more than $1.5 million annually on maintenance
for building 1102. The repair project would allow the 13th Air Force to move back into
building 1102, eliminating the annual leasing cost and reducing building 1102
maintenance costs.



                                             4

Review of Hickam AFB and Air Force Civil Engineering
Support Activity Internal Controls
Hickam AFB and AFCESA internal controls over the planning, funding, contracting, and
initial execution of the Pacific Air Forces headquarters building 1102 Recovery Act
project at Hickam AFB were effective as they applied to the audit objectives; we
identified no internal control weaknesses.




                                         5


Proper Planning, Funding, and Execution of
the Recovery Act Project to Repair Pacific
Air Forces Headquarters Building 1102
Hickam AFB personnel properly justified and adequately planned the repair of the Pacific
Air Forces Headquarters building 1102. In addition, Hickam AFB personnel properly
distributed Recovery Act funding for the project, and AFCESA personnel properly
solicited, competed, and awarded a contract for the project. Finally, AFCESA personnel
awarded a firm-fixed-price contract with the appropriate Recovery Act FAR clauses.

Project Planning and Justification
Hickam AFB personnel properly justified and adequately planned the repair of the Pacific
Air Forces Headquarters building 1102. Department of Defense Form 1391, “Military
Construction Project Data,” contained project justifications. DOD Regulation 7000.14-R,
“DOD Financial Management Regulation,” requires DOD Components to use DD Form
1391 to support the request for authorization of both new construction and urgent
unforeseen projects using emergency or contingency authorization. Two specific
sections of the form (Items 10 and 11) require details of the requirement for the proposed
project and how the current mission would benefit from the proposed project. Item 10,
“Description of Proposed Construction,” requires a clear and concise description of the
proposed construction including a complete outline of all principal features of the work.
Item 11, “Requirement,” requires a detailed, informative statement of why the project is
needed, how and under what conditions the requirement is presently being met, and the
manner and extent to which mission accomplishment would be affected if the project was
not approved.

DD Form 1391 and reports for the project to repair the Pacific Air Forces Headquarters
building validated the poor conditions of building 1102 and supported the project
justification. The reports included:

      A May 2009 Life Safety Report for Building 1102 stated that the exiting systems
       in most areas of the building did not meet basic Life Safety and Americans with
       Disability Act requirements. In addition, the report stated that the Life Safety
       Code violations identified in an August 5, 2006, study were still evident.
      A November 2006 Structural Evaluation Report for Building 1102 stated that the
       building and its infrastructure were in poor condition and needed major
       renovation.
      A July 9, 2002, Hazardous Material Assessment Report for Building 1102 stated
       that floor tiles, light fixtures, and other materials located throughout the building
       contained asbestos and that lead paint was present on interior and exterior
       surfaces of the building.



                                             6

Our tour of the building and pictures in reports provided by the Air Force staff
documented the poor conditions in building 1102.

     Figure 3. Deteriorated Heating, Ventilation, and Air Conditioning System




                            Figure 4. Deteriorated Plumbing




Project Funding
Hickam AFB personnel properly distributed the Recovery Act funds for the project to
repair the Pacific Air Forces Headquarters building. On April 17, 2009, Pacific Air
Forces personnel issued a Budget Authorization/Allocation document for $31.5 million
of Military Construction Recovery Act funding to the 15th Airlift Wing to fund the
project. On April 20, 2009, the 15th Airlift Wing issued a Fund Cite Authorization
document to AFCESA to fund the contract for the repair project.

Project Execution
AFCESA contracting personnel properly solicited, competed, and awarded the Pacific
Air Forces Headquarters building 1102 repair project.

Transparency and Inclusion of Recovery Act FAR Clauses
AFCESA contracting personnel properly posted a presolicitation notice on FBO to meet
the intent of Recovery Act project requirements for transparency. The synopsis in the
presolicitation notice clearly explained the nature of the work and informed the public
that only contractors on the existing Sustainment, Restoration, and Modernization
                                              7

Acquisition Task Order Contract (SATOC) could submit a proposal. The SATOC is an
indefinite-delivery, indefinite-quantity contract awarded by AFCESA. On May 5, 2009,
AFCESA contracting personnel issued a modification to the SATOC to incorporate the
FAR clauses for the Recovery Act.

The FBO award notice stated that on September 16, 2009, AFCESA awarded
contract FA3002-08-D-0008-0034 for $27.3 million. This contract was a competitively
awarded task order under the SATOC. The task order included a basic requirement and
three optional items. The basic requirement, for general building renovation, was
awarded using Recovery Act funds. Two of the three optional items—for
communication infrastructure and furniture—were funded with non-Recovery Act funds.
The third option for various minor construction works has not been exercised.

On August 19, 2009, the Director, Defense Procurement and Acquisition Policy
memorandum, “Posting and Reporting Requirements for the American Recovery and
Reinvestment Act of 2009,” directed that every effort be made to not use both Recovery
Act funds and non-Recovery Act funds on the same contract action. However, if the
contract action included both Recovery Act funds and non-Recovery Act funds, the total
of the funds obligated by the action must be recorded in FBO, and then the FBO award
notice must provide a breakdown of the amounts of Recovery Act and non-Recovery Act
funds.

The FBO award notice did not initially provide a breakdown of the amounts of Recovery
Act and non-Recovery Act funds. To provide transparency, we suggested that AFCESA
contracting personnel amend the award notice to include a breakdown of the amounts of
Recovery Act and non-Recovery Act funds. On February 4, 2010, AFCESA contracting
personnel amended the award notice to include a breakdown of the amounts. The total
value of the task order was $27.3 million; of that amount, $21.9 million were Recovery
Act funds, and $4.9 million were non-Recovery Act funds. One non-Recovery Act
option valued at $500 thousand had not been exercised as of August 2, 2010.

FPDS reported the amounts of Recovery Act and non-Recovery Act funds on this
contract as separate transactions to ensure transparency of Recovery Act funds.

Competition and Authorized Use of Recovery Act Funds
AFCESA contracting personnel competed the project among the 20 SATOC contractors
and received 7 proposals. The contracting office awarded a firm-fixed-price contract on
September 16, 2009, for about $27.3 million to repair the Pacific Air Forces Headquarters
building. However, only $21.9 million of that was Recovery Act funds. The DoD
Expenditure plan had an estimated amount of $31.5 million for the project to repair the
Pacific Air Forces headquarters building. The contract award resulted in a bid savings of
approximately $9.6 million (the amount approved in the DOD expenditure plan was more
than the contract award amount using Recovery Act funds). On September 14, 2009,
the Under Secretary of Defense notified the Congress that the Air Force was planning to
use those funds for additional FSRM projects at Hickam AFB.

                                           8

Project Cost and Schedule
The Recovery Act FSRM project to repair the Pacific Air Forces Headquarters
building has an October 17, 2011, planned completion date. At the time of our review,
the project was adhering to the contract cost parameters but was 2 months behind
schedule. However, the contractor was allocating more resources to make up for lost
time.

Tracking and Reporting
We did not review tracking and contractor reporting of the subject contract because, at
the time of our Hickam AFB audit, OMB reporting requirements for the Recovery Act
were not yet in effect. We will review the reporting of selected Air Force Recovery Act
actions in future reports.




                                           9


Appendix A. Scope and Methodology
We conducted this audit from August 2009 through August 2010 in accordance with
generally accepted government auditing standards. Generally accepted government
auditing standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objectives.

Scope
We selected 1 of the 27 FSRM Recovery Act projects at Hickam AFB, Hawaii. The 

15th Airlift Wing had 27 FSRM Recovery Act projects at Hickam AFB with an estimated 

cost of $48.7 million. After one project was removed from the American Recovery and 

Reinvestment Act project list, the Air Force Audit Agency reviewed the remaining 

25 FSRM projects, and published its review in Air Force Audit Agency Report No. 

F2010-0009-FBP000, “American Recovery and Reinvestment Act of 2009, 15th Airlift 

Wing, Hickam AFB, Hawaii,” December 21, 2009. 


Our report addresses the review of one Recovery Act project: the repair of 

Pacific Air Forces Headquarters Building, with an estimated value of $31.5 million. 


Methodology
Our overall audit objective was to evaluate DOD’s implementation of plans for the
Recovery Act of 2009. To accomplish our objective, we audited the planning, funding,
and project execution of the Recovery Act project to determine whether efforts of the
Military Services and Defense agencies complied with Recovery Act requirements,
OMB’s guidance, the FAR, and DOD implementing guidance. Specifically, we
determined whether:

      the selected project was adequately planned to ensure the appropriate use of
       Recovery Act funds (Planning);
      funds were awarded and distributed in a prompt, fair, and reasonable manner
       (Funding);
      the contract contained required Recovery Act FAR clauses (Project Execution);
       and
      the project avoided unnecessary delays and cost overruns (Project Execution).

Before selecting DOD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division of the DOD Office of Inspector General analyzed all DOD agency-
funded projects, locations, and contracting oversight organizations to assess the risk of
waste, fraud, and abuse associated with each. We selected most audit projects and
locations using a modified Delphi technique, which allowed us to quantify the risk based
on expert auditor judgment, and other quantitatively developed risk indicators. We used
information collected from all projects to update and improve the risk assessment model.
                                           10

We selected 83 projects with the highest risk rankings; auditors chose some additional
projects at the selected locations.

We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of Recovery Act dollars being
expended, but also of types of projects and types of locations across the Military
Services, Defense agencies, State National Guard units, and public works projects
managed by United States Army Corps of Engineers.

Use of Computer-Processed Data
We used computer-processed data to complete this audit. Specifically, we used the
notices on FBO, data reported from FPDS, and contract documentation from the
Electronic Data Archive System posted from May 2009 through February 2010. We
tested the accuracy of the data by comparing the project data reported on these systems
for consistency and also by meeting with program officials responsible for reporting on
the applicable Recovery Act requirements. Our audit focused on the reporting of contract
actions on specific Air Force projects. From these procedures, we concluded that the
DOD data were sufficiently reliable for our purposes.

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DOD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                           11


Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria and guidance (notes appear
at the end of the list):

   		 U.S. House of Representatives Conference Committee Report 111-16, “Making
       Supplemental Appropriations for Job Preservation and Creation, Infrastructure
       Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
       State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
       2009, and for Other Purposes,” February 12, 2009

   		 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
       February 17, 2009

   		 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
       Recovery and Reinvestment Act of 2009,” February 18, 2009

   		 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
       Reinvestment Act of 2009 Appropriations,” February 25, 2009

   		 White House Memorandum, “Government Contracting,” March 4, 2009

   		 White House Memorandum, “Ensuring Responsible Spending of Recovery Act
       Funds,” March 20, 2009

   		 OMB Memorandum M-09-15, “Updated Implementing Guidance for the
       American Recovery and Reinvestment Act of 2009,” April 3, 20091

   		 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
       With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   		 OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
       Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   		 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
       of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
       June 22, 20092

   		 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
       with Registered Lobbyists About Recovery Act Funds,” July 24, 2009

   	 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
      September 11, 2009
                                  12

    		 OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
        Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
        Clause 52.204-11,” September 30, 20092

    		 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
        and Reinvestment Act – Data Quality, Non-Reporting Recipients, Reporting of
        Job Estimates,” December 18, 20092

    		 OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
        and Reinvestment Act,” March 22, 20102

    		 White House Memorandum , “Combating Noncompliance with Recovery Act
        Report Requirement,” April 6, 20102

    		 OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
        Compliance under the American Recovery and Reinvestment Act,” May 4, 20102

End Notes
1
  Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.




                                                     13


